May 14, 2009

JORDAN M. SMALL
ACTING VICE PRESIDENT, NETWORK OPERATIONS

SUSAN BROWNELL,
VICE PRESIDENT, SUPPLY MANAGEMENT

SUBJECT: Audit Report – Boston Airport Mail Center Outsourcing
         (Report Number EN-AR-09-003)

This report presents the results of our audit of the Boston Airport Mail Center (AMC)
Outsourcing (Project Number 08XG039EN000). Our objectives were to evaluate the
operational and monetary impacts of the Boston AMC outsourcing initiative and
compliance with outsourcing policies. The U.S. Postal Service requested this audit as
part of our Value Proposition Agreement.1 This is the third in a series of reviews
examining outsourcing initiatives.2 This audit addresses network streamlining in the
strategic risk category as well as staffing and process efficiency in the operational risk
category. See Appendix A for additional information about this audit.

Conclusion

Service scores improved after the Boston AMC closure3 and outsourcing. Additionally,
the Postal Service saved approximately $8.4 million in costs in the first calendar year
following the AMC outsourcing. Postal Service employees complied with outsourcing
requirements established in Article 324 and followed policies and procedures for the
contract award and oversight processes. However, the comparative analysis developed
during outsourcing planning was overstated by approximately $3.1 million over the
contract period of 11 years. The Postal Service also paid $172,857 in unsupported
parking fees and $31,611 for equipment not used to process the mail from May 2006
through January 2009. Eliminating these costs for the remaining term of the contract
(4.5 years) could save the Postal Service $318,330. Lastly, the Postal Service paid
1
  A value proposition is a signed agreement between the U.S. Postal Service Office of Inspector General and Postal
Service management to perform one or more specific audits in an agreed-upon period.
2
  AMC outsourcing is one of the Postal Service’s many outsourcing initiatives. Outsourcing is the use of outside
resources to perform activities that internal staff and resources traditionally handle.
3
  The Boston AMC closed on November 18, 2005.
4
  Article 32 of the Collective Bargaining Agreement between the Postal Service and labor unions requires the Postal
Service to meet with unions while developing an initial comparative analysis and to consider the unions’ views of
costs and other factors in discussions of outsourcing.
Boston Airport Mail Center Outsourcing                                                                EN-AR-09-003



$296,998 in port fees to the supplier, Worldwide Flight Services; however, the supplier
did not pay these fees to the Massachusetts Port Authority (MASSPORT).

Operational Impacts

Impact on Employees – As of July 2006, all employees assigned to the AMC were re-
assigned within the Boston District, transferred out of the district or retired. No
employees lost their job because of the AMC closure. Most employees were
transferred to the Boston Processing and Distribution Center (P&DC) or the Northwest
Boston Processing and Distribution Facility (NWB P&DF). This resulted in a temporary
increase of employees at these facilities. See Appendix B for our detailed analysis of
this topic.

Impact on Service – The supplier, Worldwide Flight Services, met contract performance
standards. Compliance is measured by exception reports filed when mail going through
the supplier’s facility misses a flight. No exception reports were filed between
November 2005 and December 2008. Overall, service scores for overnight and 2- and
3-day service have improved since the AMC was closed. See Appendix B for our
detailed analysis of this topic.

Monetary Impacts

Costs to outsource the AMC for 2006 and 2007 were less than one-half the 2005 AMC
operating costs of $14.7 million. The total contract costs, plus salaries and benefits for
Postal Service employees working at the supplier’s facility and Boston Logan
International Airport (15 ramp clerks, three supervisors, and one Air Transportation
supervisor), were approximately $6.3 million in 2006 and $6.5 million in 2007. This
resulted in savings of approximately $8.4 million in 2006 and $8.1 million in 2007. See
Appendix B for our detailed analysis of this topic.

Compliance with Outsourcing Policies

Management generally complied with outsourcing policies and procedures for the
Boston AMC. Specifically, management complied with requirements established in
Article 32 of the collective bargaining agreements before outsourcing the Boston AMC
functions. However, the price difference5 reported in the comparative analysis used as
one of the factors to justify outsourcing the Boston AMC was overstated by
approximately $3.1 million over the contract period of 11 years. This occurred because
employees responsible for developing the comparative analysis omitted some port fees.
As a result, management relied on incorrect price estimates as a basis for outsourcing
the Boston AMC. However, this would not have impacted the decision, because even
with the fees included, it was still less expensive to outsource the AMC when compared
to the in-house option. See Appendix B for our detailed analysis of this topic.
5
 The price difference represents the difference between the estimated costs for the Postal Service to operate the
AMC and the estimated contractor’s costs to perform the function.




                                                          2
Boston Airport Mail Center Outsourcing                                             EN-AR-09-003




We recommend the Acting Vice President, Network Operations:

1. Ensure that all suppliers’ proposed costs are included in future comparative
   analyses.

Contract Oversight – Postal Service staff responsible for overseeing the supplier’s
performance generally complied with applicable policies and procedures; however,
improvements could be made. Specifically, the supplier included unsupported parking
fees and costs for equipment no longer used when the supplier moved off airport
grounds. This occurred because Postal Service employees responsible for providing
contract oversight did not question the parking costs included in the variable rates and
were unaware that equipment included in the contract was not used to process the mail.
As a result, from May 2006 through January 2009, the Postal Service paid $172,857 in
additional parking fees and related costs6 and $31,611 for equipment and related costs
not used to process the mail. Eliminating these costs for the remaining term of the
contract (4.5 years) could save the Postal Service $318,330. See Appendix B for our
detailed analysis of this topic.

We recommend the Vice President, Supply Management:

2.      Direct the Postal Service Law Department and the contracting officer to review the
        contract and identify options to eliminate unnecessary contract costs to the Postal
        Service.

3.      Direct the contracting officer to meet with the supplier and renegotiate contract
        costs based on options identified with the Postal Service Law Department.

Port Fees – The supplier is holding $296,998 for port fees paid by the Postal Service
that have not been paid to MASSPORT. This occurred because the supplier relocated
off airport grounds and believed they were no longer required to pay these fees. The
supplier should return these fees to the Postal Service. See Appendix B for our
detailed analysis of this topic.

We recommend the Vice President, Supply Management:

4.      Request a refund of $296,998 from Worldwide Flight Services for port fees not paid
        to the Massachusetts Port Authority.




6
    Related costs include general and administrative fees and profit.




                                                             3
Boston Airport Mail Center Outsourcing                                          EN-AR-09-003




Management’s Comments

Management generally agreed with recommendation 1, to ensure that all suppliers’
costs are included in future comparative analyses. However, management did not
agree with our assessment that port fees were omitted from the comparative analysis.

Management agreed with the intent of recommendation 2, to meet with the Postal
Service Law Department to review the contract and identify options to eliminate
unnecessary contract costs to the Postal Service. However, management does not fully
agree that eliminating the OIG’s suggested “unnecessary contract costs” is the
appropriate action to take. Management stated that taking steps to recover the costs
places the Postal Service at risk with respect to the supplier’s increased costs of
$2.9 million associated with its move off airport grounds. In addition, the Postal Service
Law Department advised that the fixed-price nature of the contract precluded any
opportunity for the Postal Service to assert entitlement to an adjustment in that regard.

Management generally agreed with recommendation 3, to meet with the supplier and
renegotiate contract costs based on options identified with the Postal Service Law
Department. Management is currently negotiating the exercise of an unpriced option
that will ensure categories of price reflect a more accurate picture of the current off-
airport contract.

Management did not agree with recommendation 4, to request a refund of $296,998
from Worldwide Flight Services for port fees not paid to the Massachusetts Port
Authority. Management stated it is not in the Postal Service’s best interest to request a
refund when the supplier will incur an additional $2.9 million in costs associated with its
contract performance. See Appendix E for management’s comments in their entirety.

Evaluation of Management Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments to recommendation 1 responsive. Management agreed with our
recommendation to ensure that all suppliers’ proposed costs are included in future
comparative analyses. However, management disagreed with our statement that port
fees were omitted from the comparative analysis. Our comparison of the supplier’s
costs submitted in its proposal and the supplier’s costs used in the comparative analysis
differed because not all port fees were included in the Postal Service’s comparative
analysis. The contracting officer concluded that an oversight occurred because
management did not forward the latest supplier’s costs to the team responsible for
developing the Postal Service’s comparative analysis.

The OIG considers management’s comments on recommendation 2 responsive.
Management consulted with the Postal Service Law Department and concluded that the
fixed-price nature of the contract precluded any opportunity for the Postal Service to




                                             4
Boston Airport Mail Center Outsourcing                                         EN-AR-09-003



assert entitlement to an adjustment. As a result of this OIG audit, the contracting officer
requested the supplier to submit its costs incurred to date for this contract.
Management stated that the supplier will incur approximately $2.9 million in increased
costs over the life of the contract as a result of its move off airport grounds. During the
review, the audit team requested documentation supporting the $2.9 million in additional
costs, but we were unable to validate the reasonableness of the additional costs.

The OIG considers management’s comments on recommendation 3 responsive.
Management generally agrees with the concept of renegotiation due to current cost
reduction efforts. Although management does not fully agree that renegotiation in this
case is the appropriate action, management is currently negotiating the exercise of an
unpriced option that will ensure categories of price reflect a more accurate picture of the
current off-airport contract.

The OIG considers management’s comments on recommendation 4 unresponsive.
Management was unable to provide documentation to support the potential $2.9 million
in projected additional costs if the supplier is asked to refund the port fees. We still
consider the recommendation to be worthwhile, but because we did not designate it as
significant, we will not pursue it through the resolution process.

We will report $204,468 in Unrecoverable Questioned Costs, $318,330 in Funds Put to
Better Use, and $296,998 in Recoverable Questioned Costs in our Semiannual Report
to Congress.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Michael A. Magalski, Director,
Network Optimization, or me at (703) 248-2100.

     E-Signed by Robert Batta
 VERIFY authenticity with ApproveIt




Robert J. Batta
Deputy Assistant Inspector
 for Mission Operations

Attachments

cc: Patrick R. Donahoe
    William P. Galligan
    Katherine S. Banks




                                             5
Boston Airport Mail Center Outsourcing                                                             EN-AR-09-003




                           APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The Postal Service maintains AMCs and airport mail facilities (AMF)7 to expedite the
transfer of mail to and from commercial air carriers. This transfer is called the tender
and receipt of mail. In many cases, these airport facilities have excess capacity as a
result of declining volumes of mail tendered to commercial air carriers. Commercial air
volume has declined from approximately 837 million pounds of mail in fiscal year (FY)
2004 to 410 million pounds in FY 2008. Figure 1 shows this trend. To address this
issue, the Postal Service began standardizing AMCs by returning non-core AMC
operations to P&DCs and bulk mail centers. This standardization enabled the Postal
Service to improve efficiency and productivity, and reduce costs at the AMCs.




Optimizing the Network

The Postal Service identified Network Integration and Alignment (NIA) as a strategy in
the Transformation Plan.8 NIA’s charter was to create a flexible logistics network that
would reduce costs for the Postal Service and its customers, increase operational
effectiveness, and improve consistency of service. In 2003, the President’s
Commission9 found the Postal Service had more facilities than needed and
recommended optimizing the facility network.



7
  We use the term AMC in this report to refer to AMCs and AMFs, which perform essentially the same functions and
have the same operations. AMCs are generally larger than AMFs.
8
  United States Postal Service Transformation Plan, dated April 2002.
9
  Report of the President’s Commission on the United States Postal Service, dated July 31, 2003.




                                                        6
Boston Airport Mail Center Outsourcing                                                          EN-AR-09-003



The Strategic Transformation Plan 2006-201010 stated that the efforts to create a
flexible network to increase productivity and effectiveness — formerly called NIA —
would continue as an evolutionary process called Evolutionary Network Development.
One of these efforts was to reexamine the role of AMCs to determine if these facilities
could be reduced and better coordinated using third-party facilities (contracting out).
The 2006 Annual Progress Report11 noted that because of the consolidation of air
contractors and expansion of the surface transportation network, the Postal Service was
reviewing AMCs. At that time, management was considering contracting out operations
at 43 AMCs. The Strategic Transformation Plan 2006-2010, 2007 Update12 noted that
some non-core operations were transferred from AMCs to processing plants. More than
40 facilities were standardized, and additional facilities were to be standardized in 2008.

In December 2006, the Postal Accountability and Enhancement Act13 (Postal Act of
2006) required the Postal Service to provide a facilities plan that would include a
strategy for rationalizing the facilities network and removing excess processing capacity
and space from the network. This plan was provided to Congress in June 2008.

Operational Impact

Because of security restrictions imposed by the Federal Aviation Administration after
September 11, 2001, the Postal Service no longer uses commercial passenger aircraft
for Priority Mail®. Consequently, there has been a significant decrease in the volume of
mail tendered to commercial passenger carriers. Priority Mail is now tendered to
Federal Express and United Parcel Service and containerized by terminal handling
services in specially configured facilities. This has contributed to the underutilization of
AMC facilities.

Before the initiative to outsource and reduce the number of AMCs, the Postal Service
had 80 AMCs — 12 percent of the facilities in the processing network. The Postal
Service reduced the number of AMCs by three in FY 2006. Further reductions included
45 facilities in FY 2007 and 12 facilities in FY 2008. As of October 2008, nine additional
AMCs were scheduled to close in 2009. Of the remaining 11 AMCs that will stay in
operation, seven of these are to be re-classified as P&DCs, and four will remain active
AMCs.

In January 2006, management implemented a nationwide integrated air strategy that
included reducing reliance on passenger airlines; renegotiating and renewing the
Federal Express contract; and where possible, shifting mail moved by air to less costly
ground transportation. This strategy would allow the Postal Service to eliminate
infrastructure because contractors would perform tender and receipt of mail and other
AMC core operations, reducing or eliminating the need for some AMCs.

10
   Strategic Transformation Plan 2006-2010, dated September 2005.
11
   Strategic Transformation Plan 2006-2010, 2006 Annual Progress Report, dated December 2006.
12
   Strategic Transformation Plan 2006-2010, 2007 Update, dated December 2007.
13
   Postal Accountability and Enhancement Act, Public Law 109-435, dated December 2006.




                                                      7
Boston Airport Mail Center Outsourcing                                         EN-AR-09-003




In September 2006, the Postal Service entered into a new commercial air contract with
seven air carriers: American Airlines, American Trans Air, Continental, Jet Blue,
Midwest Express, Sun Country, and US Airways/America West. In April 2007, the
Postal Service added on a trial basis an eighth air carrier, United Airlines. The previous
commercial air contract used 17 air carriers. At the same time, the Postal Service
continued with its air-to-surface initiative, which diverted 3-day First-Class Mail® volume
to surface transportation. This reduction of air carriers and increased use of surface
transportation provided an opportunity to use direct tender and receipt of mail.

OBJECTIVES, SCOPE, AND METHODOLOGY

Our objectives were to evaluate the operational and monetary impacts of the Boston
AMC outsourcing initiative and compliance with outsourcing policies. To accomplish the
objectives, we interviewed Postal Service employees, visited the Boston, MA, P&DC
and supplier’s facilities, and assessed the processes followed to comply with Article 32
requirements and contract oversight. We assessed the processes used by Postal
Service employees during the pre-award phase, which included developing the
comparative analysis, the solicitation for proposals, evaluating factors, proposal
evaluation, price reasonableness certification, and contract award notification. We also
reviewed contract files and compared service performance before and after core
operations were outsourced. In addition, we reviewed available guidance for
outsourcing mail processing operations at AMCs and the implications of the Postal Act
of 2006.

We utilized information from two Postal Service data systems: Web Enterprise
Information System and the Enterprise Data Warehouse. We did not test the controls
over these systems. However, we checked the accuracy and reasonableness of the
data by confirming our analysis and results with management and by consulting
different data sources. We found no material differences. Because the comparative
analysis developed to evaluate AMC outsourcing could not be used to project cost
savings, we relied on other sources to complete our analysis. We used the Postal
Service’s Electronic Data Warehouse Financial Performance Report to determine AMC
operating costs and compared that to contract costs.

We conducted this performance audit from July 2008 through May 2009 in accordance
with generally accepted government auditing standards and included tests of internal
controls that were necessary under the circumstances. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives. We discussed our observations and
conclusions with management officials on February 27, 2009, and included their
comments where appropriate.




                                             8
         Boston Airport Mail Center Outsourcing                                                 EN-AR-09-003



                                            PRIOR AUDIT COVERAGE

Report Title         Report Number       Final Report Date       Report Results
St. Louis Airport    EN-AR-08-002       February 29, 2008        The decision to outsource some operations at
Mail Center                                                      the St. Louis AMC was supported and should
Outsourcing                                                      reduce costs with minimal impact on service
                                                                 performance. However, management did not
                                                                 formalize lessons learned and best practices
                                                                 and develop guidance for measuring results.
                                                                 Management agreed with recommendations
                                                                 to formalize lessons learned, establish a
                                                                 post-implementation review (PIR) program for
                                                                 AMCs, and conduct a PIR for the St. Louis
                                                                 AMC.
Miami Airport        EN-AR-08-004        July 16, 2008           The Postal Service’s planning for the Miami
Mail Center                                                      AMC outsourcing initiative appeared
Outsourcing                                                      adequate. The Postal Service made the
                                                                 decision to outsource some operations at the
                                                                 Miami AMC and reduce costs with minimal
                                                                 impact on service performance.
                                                                 Management generally complied with existing
                                                                 policies and procedures. Management
                                                                 agreed with the recommendation to conduct
                                                                 a PIR after outsourcing the Miami AMC to
                                                                 determine whether the outsourcing was cost-
                                                                 effective.
Data Needed to       GAO-08-787         July 24, 2008            The audit found that the Postal Service has
Assess the                                                       no statutory restrictions on the work it may
Effectiveness of                                                 outsource; however, collective bargaining
Outsourcing                                                      agreements impose some requirements and
                                                                 limitations. The Government Accountability
                                                                 Office (GAO) recommended the Postmaster
                                                                 General establish a process to measure the
                                                                 results and effectiveness of outsourcing
                                                                 activities subject to collective bargaining,
                                                                 including tracking actual costs and savings,
                                                                 and comparing them with estimated costs
                                                                 and savings. Further, GAO recommended
                                                                 the Postal Service include information on the
                                                                 results and effectiveness of these ongoing
                                                                 outsourcing activities in its annual operations
                                                                 report, Comprehensive Statement on Postal
                                                                 Operations, to Congress.




                                                             9
Boston Airport Mail Center Outsourcing                                      EN-AR-09-003



                            APPENDIX B: DETAILED ANALYSIS

Operational Impacts

The outsourcing of the Boston AMC functions helped the Postal Service realign its
network to reduce costs.

    •   The majority of AMC employees (141 of 185 assigned to the Boston AMC in July
        of 2005) were transferred to either the Boston P&DC or NWB P&DF. Chart 1
        shows the number of employees at all three facilities from January 2005 through
        January 2008. While there may have been some temporary increases at the
        Boston P&DC and NWB P&DF to accommodate reassigned employees, there
        were no permanent increases.

                             Chart 1: Boston District Employees




                                             10
Boston Airport Mail Center Outsourcing                                                                                                                     EN-AR-09-003




    •   The supplier met contract performance standards. Compliance is measured by
        exception reports filed by the Postal Service Air Transportation Supervisor and
        supplier when mail processed does not meet scheduled flights. We requested
        copies of all exception reports filed between November 2005 when the contract
        was awarded and December 2008, but none had been filed during this period.
        Since no reports had been filed, the Postal Service assumed that the supplier
        achieved the goal of 98 percent of mail processed in time to meet assigned
        flights. The Postal Service Air Transportation Supervisor confirmed that no
        exception reports had been filed and stated she was satisfied with the supplier’s
        performance.

    •   Overall service scores for 2-day, 3-day, and overnight service within the Boston
        District have improved since the Boston AMC closed. Service performance is the
        result of many factors and is difficult to establish singular cause and effect. While
        we could not directly attribute the improved Boston District service performance
        to the closing and outsourcing of the Boston AMC, we are not aware of any other
        significant change in district operations that would singularly account for the
        improvements. We compared the first quarter of FY 2005 mail service scores for
        the Boston District with the mail service scores through the fourth quarter of FY
        2007. We found that in the first quarter of FY 2005, 2- and 3-day mail service
        scores for originating and destinating mail were 89.67 percent on time. By the
        fourth quarter of FY 2007, the on-time rate had risen to 94.55 percent.
        Additionally, on-time overnight performance in the first quarter of FY 2005 was
        95.21 percent and increased to 96.53 percent by the fourth quarter of FY 2007.
        Chart 2 below shows service scores for the Boston District.

                      Chart 2: Boston District Service Scores FYs 2005 – 2007

  98
  96
  94
  92
  90
                                                                                                                                                              2-3 Day
  88
                                                                                                                                                              Overnight
  86
  84
  82
  80
  78
        1s t




                                  3r d


                                             4th


                                                         1s t




                                                                                   3r d


                                                                                              4th


                                                                                                          1s t




                                                                                                                                    3r d


                                                                                                                                               4th
                      2n d




                                                                       2n d




                                                                                                                        2n d
             Qtr




                                                              Qtr




                                                                                                               Qtr
                                       Q


                                                 Qtr




                                                                                        Q


                                                                                                  Qtr




                                                                                                                                         Q


                                                                                                                                                   Qtr
                        Q tr




                                                                         Q tr




                                                                                                                          Q tr
                                     tr 0




                                                                                      tr 0




                                                                                                                                       tr 0
                 05




                                                     0


                                                                  06




                                                                                                      0


                                                                                                                   07




                                                                                                                                                       0
                             05




                                                                              06




                                                                                                                               07
                                         5


                                                   5




                                                                                          6


                                                                                                    6




                                                                                                                                           7


                                                                                                                                                     7




                                                                                   11
Boston Airport Mail Center Outsourcing                                                                         EN-AR-09-003



Monetary Impact

Our analysis determined that the Postal Service achieved savings by outsourcing the
Boston AMC functions. We compared the Postal Service’s costs for operating the
Boston AMC facility to the supplier’s costs for performing the AMC functions. We
extracted the Boston AMC Financial Performance Report for calendar year (CY) 2005
and determined that the Postal Service’s total costs for operating the Boston AMC
functions were $14,686,356. The supplier’s total costs to the Postal Service were
$6,303,708 in CY 2006 and $6,540,627 in CY 2007. These costs included the amount
paid to the supplier and salaries and benefits paid to 19 Postal Service employees
located at the supplier’s facility and Logan International Airport, but did not include any
costs related to contract oversight. We determined the Postal Service saved, exclusive
of those contract oversight costs, $8,382,648 in CY 2006 and $8,145,729 in CY 2007 as
a result of the Boston AMC outsourcing.

Compliance with Policies and Procedures

Management generally complied with Article 32 of the national agreement with the
unions, although compliance may be tested by arbitration. In addition, management
generally complied with supply management principles and practices.

Article 32 and Outsourcing Policies

The Postal Service met Article 32 time requirements, provided the unions with the
required documentation, and considered the unions’ inputs and alternatives to
outsourcing. However, the American Postal Workers Union (APWU) and the National
Postal Mail Handlers Union (NPMHU) have filed national level disputes alleging
violations of Article 32. The disputes have not yet been scheduled for arbitration.

       •    On August 11 and 15, 2005, the Postal Service notified the NPMHU and APWU
            representatives that they were considering outsourcing the Boston AMC
            functions.

       •    On August 12 and 15, 2005, Postal Service management provided the NPMHU
            and APWU with an analysis addressing the five factors14 as established in the
            national agreement and an initial comparative analysis.

       •    Postal Service representatives also met and corresponded with union
            representatives to inform them of their intent to outsource the Boston AMC
            functions. Union representatives provided Postal Service management with their
            input on the Postal Service’s justification and the initial comparative analysis.



14
     The five factors are public interest, cost, efficiency, availability of equipment, and qualification of employees.




                                                               12
Boston Airport Mail Center Outsourcing                                             EN-AR-09-003



       •   The Postal Service considered the unions’ comments and addressed them, as
           required by Article 32.

Our assessment of the comparative analysis showed that the price difference was
overstated by approximately $3.1 million over 11 years. This occurred because
employees responsible for developing the comparative analysis omitted some port fees.
The result showed a price difference of approximately $1 million in favor of outsourcing
versus the $4.1 million reported by Postal Service officials. As a result, Postal Service
management relied on incorrect price estimates as one of the factors used to support
the decision to outsource the Boston AMC functions, but this would not have altered the
decision.

Contract Oversight

We also assessed the Postal Service’s contract oversight. We determined that
generally, the contracting officer provided adequate contract oversight. However,
additional improvements could be made.

       •   The supplier included unsupported parking fees in its variable costs covered in its
           facilities lease, and costs for equipment that was not used for mail processing
           after the move to the current location off airport grounds in January 2006. This
           occurred because staff responsible for providing contract oversight did not
           question the parking costs included in the variable rates and were unaware that
           some equipment was no longer used to process mail. As a result, the Postal
           Service paid $172,857 in additional parking fees and related costs15 and $31,611
           for equipment no longer used to process the mail and related costs from May
           2006 through January 2009. Eliminating these costs for the remaining term of
           the contract (4.5 years) could save the Postal Service $318,330.

       •   In May 2006, the Postal Service issued a modification to the contract, increasing
           the mail volume to be processed by the supplier. The increase in mail volume
           required the supplier to provide the Postal Service with a new price sheet, which
           showed an increase in the price per pound the Postal Service would pay for the
           additional mail volume processed by the supplier. However, when the supplier
           updated the price sheet to reflect the new price per pound, it did not eliminate the
           costs for parking fees and equipment no longer required to process the mail.

       •   We determined that not eliminating the equipment costs resulted in
           unrecoverable costs to the Postal Service totaling $31,611. Eliminating these
           costs could result in $50,996 in funds put to better use during the remaining
           contract term.



15
     Related costs refer to General and Administrative fees and profit.




                                                             13
Boston Airport Mail Center Outsourcing                                          EN-AR-09-003



    •   We determined that payments for parking costs resulted in $172,857 of
        unrecoverable costs to the Postal Service. Eliminating these costs in the future
        could result in more than $267,334 in funds put to better use during the
        remaining contract term.

    •   On February 18, 2009, the Postal Service Chief Financial Officer (CFO) issued a
        letter to all Postal Service suppliers. The letter noted that the Postal Service is
        experiencing the largest mail volume decline in its history and suffered a net $2.8
        billion loss in 2008. The CFO stated that the Postal Service was taking steps to
        reduce costs, increase efficiency and optimize its workforce. As a means of cost
        reduction, the CFO announced an initiative to reduce costs related to products
        and services provided by suppliers. The goal of this initiative was savings of
        “well over $1 billion a year.” Eliminating payments for equipment not used and
        unnecessary parking fees will contribute to this savings initiative. See Table 1
        below for costs to the Postal Service of parking fees and equipment not used by
        the supplier.

              Table 1: Parking Fees and Equipment Not Used by Supplier
                                    Unrecoverable    Funds Put to
                 Description            Costs         Better Use     Total
             Equipment                   $ 31,611       $ 50,996     $ 82,607
             Parking Fees                  172,857       267,334      440,191
                   Total                  $204,468      $318,330     $522,798

Port Fees Paid to the Contractor

The supplier is holding $296,998 for access and port fees paid by the Postal Service
that have not been paid to MASSPORT. The supplier moved off airport grounds and is
currently challenging these charges.

    •   When the contract for terminal handling services was awarded to the supplier,
        the supplier intended to operate on airport grounds. Consequently, the supplier
        expected to pay MASSPORT 5 percent of the total contract cost in port fees.
        However, when the supplier moved off airport grounds, supplier officials believed
        they were no longer required to pay the port fees. As a result, the supplier
        stopped paying port fees to MASSPORT and is currently challenging the charges
        imposed by MASSPORT.

    •   Although the supplier was not making the payments to MASSPORT, the Postal
        Service continued paying the fees to the supplier for 22 months, but stopped
        paying port fees to the supplier when the Postal Service exercised the contract’s
        first option.

    •   We calculated the port fees the Postal Service paid to the supplier between
        May 1, 2006, and August 26, 2007, and determined that the Postal Service



                                               14
Boston Airport Mail Center Outsourcing                                        EN-AR-09-003



        should request a refund of $296,998 for fees the supplier has not paid to
        MASSPORT.




                                            15
Boston Airport Mail Center Outsourcing                                                                 EN-AR-09-003




                      APPENDIX C: SUMMARY OF QUESTIONED COSTS
                            AND FUNDS PUT TO BETTER USE

                                     Unrecoverable             Funds Put             Recoverable
                                      Questioned                to Better            Questioned
              Description               Costs16                   Use17                Costs18
            Parking                       $172,857                $267,334
            Equipment                       31,611                  50,996
            Port Fees                                                                        $296,998
            Totals                            $204,468             $318,330                  $296,998




16
   Unrecoverable costs that are unnecessary, unreasonable, or an alleged violation of law or regulation.
17
   Funds that could be used more efficiently by implementing recommended actions.
18
   Recoverable costs that are unnecessary, unreasonable, or an alleged violation of laws or regulations.




                                                         16
Boston Airport Mail Center Outsourcing                    EN-AR-09-003




      APPENDIX D: LETTER TO SUPPLIERS FROM THE POSTAL SERVICE’S
                       CHIEF FINANCIAL OFFICER




                                         17
Boston Airport Mail Center Outsourcing        EN-AR-09-003




                                         18
Boston Airport Mail Center Outsourcing                     EN-AR-09-003



                       APPENDIX E: MANAGEMENT’S COMMENTS




                                         19
Boston Airport Mail Center Outsourcing        EN-AR-09-003




                                         20
Boston Airport Mail Center Outsourcing        EN-AR-09-003




                                         21
